OFFICE OF GENERAL COUNSEL

JASON R. GABRIEL* CITY OF JACKSONVILLE
GENERAL COUNSEL

TRISHA D. BOWLES
KAREN M, CHASTAIN
DERREL Q. CHATMON

Brett G MeRexess
DaviD M. Micur
JaMES R.MCCawN, JR,

   

ARIELP. Cook WeNpy L. MusMtaw
JULIA. avis, \ , KELLY H. PAPA
Sternen M. DURDEN on” TItFINY DOUGLAS PINKSTAFF
SHANNON K, ELLER =a Jon R. PHILLIPS.
“CRAIG D. FEISER CCterRy SHAW POLLOCK,
Guueear 1, FeLreL Jn Civ HALL, ST. JAMES BUILDING STEPHEN} POWELL.
Loree L FRENCH 117 WEsT DUVAL STREET, SUITE 480 ASHLEY B_ RUTHERFORD,
-CHRISTOPUER GARRETT JACKSONVILLE, FLORIDA 32202 JOUNC SAwyER, JR
KYLEGAUIN MARGARET M, SIDMAN
MARY MARGARET Giawsint Magy E. STaFForoULos
SEAN B. GRANAT JASON R. TEAL
SUSANC. GRANDIN Ania TEODORESCU
SONYA IARRELL Keatey West
KATY A. HARRIS STANLEY M, WESTON
Miia R, HILL, Gany Younc
Lawsikta J, Hopces,

PAIGE Hoses JonNstos *Boaxp Centirten Cry, COUNTY
Rita M, Mams AND LOCAL GOVERSMEST Law

March 30, 2020

VIA ELECTRONIC FILING AND U.S. MAIL
Scott S. Harris

Clerk of the Court

Supreme Court of the United States

Office of the Clerk

1 First Street, N.E.

Washington, D.C. 20543

 

Re: Matthew Reid Hinson v. R.A. Bias, et al.
No. 19872
Unopposed request for 30-day extension of time

Dear Mr. Harris:

I, on behalf of the City of Jacksonville, Florida (“City”), represent Respondents, Officers R.A. Bias,
et al., with regard to the above referenced matter. The Petition for Writ of Certiorari in the in above entitled
case was filed on January 10, 2020, and Respondents filed a Waiver of their right to respond on January
21, 2020. However, the Court requested a Response to be filed on or before March 2, 2020. Respondents
received an extension of time and the Response is currently due on April 2, 2020.

However, due to the COVID-19 outbreak here in Duval County, Florida and nationwide,
government operations have been severely disrupted and we believe extraordinary circumstances exist that
necessitate a brief second extension of time as stated in the Supreme Court’s March 19, 2020 Order.
Pursuant to Rule 30.4 of the United State Supreme Court, the City requests a thirty (30) day extension of
time to file a brief in opposition to the Petition for Writ of Certiorari, up to and including May 4, 2020.

 

 

Office Telephone Writer's Direct Line Facsimile Writer's E-Mail Address Office Web Site
(904) 255-5100 (904) 255-5052 (904) 255-5120 cfeiser@coj.net GeneralCounsel.caj.com
March 30, 2020
Page 2

Petitioner does not oppose this request for extension. Accordingly, the City requests a thirty (30)
day extension of time, until May 4, 2020, to file a brief in opposition to the Petition for Writ of Certiorari.
We thank you for your time and attention to the foregoing.
Respectfully submitted,

ea

Craig D. Feiser
Assistant General Counsel
